31tt tlje

Supreme Court of tfje QSntteb States
ABDUL MOHAMMED,
PETITIONER,
v

JUDGE JORGE ALONSO ET.AL,
RESPONDENTS
On Petition for Writ of Mandamus to the United
States District Court for the Northern District of
Illinois and the Executive Committee of the
United States District Court for the Northern
District of Illinois
APPENDIX TO PETITION FOR WRIT OF
MANDAMUS
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
PH: (630) 854-5345
aamohamme d@hotmail. coir

August 5, 2020

13

1
Case 1 20-CV-03481 Qnornent

7 Filed 00;29'20 Kiye 1 of 2 PooelD " '<")

Cm 11 n S i A i ks Dim hk r ( oi k r
Foil Till. NUKIIIKKN DtSI Kl< I Ol- Il.I.INOl"
1:1AS I K KN Dl\ ISiUN
A hi hi, Moii.vavii.u,
PiamniY.
Xu. 2d CV 2 is 1
V

Juci'.’L- Ma.nCn S. 8 ho!.
-Ii iXiF. •!ok«';i, A.i u>.s.u, • ! J..
IItTs ndiuit
Okdkk
Plaintiffs jrtpticauun to proceed di
paupen-> (fi) i.-> dt-nit-a. Iiu- complaint
A di mi a:1 j>ur*aLn lo 28 U.S.C. § 191o(e)(2>(B>. Enter judsutw and terminate
civi.l t i',4..

St.vii ..M.i'X r
PLimtiff submitted a complaint naming judge »> U f tiii.- United Mates Di-trict
Court for the Northern District of Illinois and the United Suit L-S Ccnin of Appeals for
tli- Seventh Circuit as defendants. Because plaintiff h.u appbed to ur reed in lurma
pauperis, the court is required to review the complaint and d::mi . it if the at non is
frivolous or malicious, fails to state a claim on which relief may be gran red or -reeks
monetary relief against a defendant who is immune from mrh relief, le L.S.C.
§ 1915(e)(2)(B).
The complaint accuses the district judges of improper ruling- and bias m
Mohammed v. DuPage Legal Assistance Foundation, et al., No. IS CVlidOd (N D. Ill);
Mohammed v. Anderson, et al.. No. 18 CV 8393 (N.D. HL); and Mohammed t. Stale of
Illinois, No. 20 CV 50133 (N.D. 111.). The complaint next nlU-gc.- that the judge* on
the court of appeals rubber-stamped a recommendation from <t.iQ' attorney.' when
issuing the decision in plaintiffs appeal in Mohammed t Du Page Lcgc? A^u.tcnce
Foundation, et a/., No. 19-1207 (7th Cir Oct. 22, 2010) Plainiui' seek* dumagts along
v/ith injunctive relief in the form of judicial di p v ilification and vacatur of t he
judgments in his dismissed lawsuits.
There are a number of problems with plaintiffs complaint, but : the end o{
the day, it attempts to obtain money from judges for the way they handled cases.
They are immune from such suits. See Mireles u. Waco, 502 U.S. 9
The
complaint alleges that the judges acted without jurisdiction, and then, l ire without
judicial immunity, but this is incorrect. Even if the judges lacked -uihinet-matter
jurisdiction, they were issuing rulings in pending cases in their capacit- as judges.

App 001

&

Case: l:20-cv-034Sl Document m 7 Fifed: 06/29/20 Page 2 of 2 PagelD tt.80
They are immune from lawsuits challenging their rulings. The requested injunctive
relief—disqualification of the judges and reversal of their rulings—does not save the
complaint from dismissal because that effectively seeks to vacate final judgments and
pursue arguments that plaintiff could have pursued on direct appeal or through
Federal Rule of Civil Procedure 60(b). A collateral attack of this kind on civil
judgments is not permitted. See Johnson v. UMG Recordings, Inc,, 663 Fed. App'x
478,479 (7th Cir. 2016). And plaintiff can still pursue arguments within his pending
case, No. 20 CV 50133 (N.D. Ill.), and if necessary, in any appeal from that case. A
separate suit asking one district court judge to intervene in a case pending before
another district court judge is not appropriate.
Plaintiffs complaint is dismissed with prejudice because amendment would be
futile—the judges are immune from these types of claims and plaintiff cannot pursue
the injunctive relief he seeks in a separate suit. Plaintiffs application to proceed in
forma pauperiB is denied. Enter judgment and terminate civil case.
I Si

Enter:
Date: June 29, 2020

Manish S. Shah
U.S. District Judge

-a*
,v

,V:«i

r

App 002

UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois — CM/ECF LIVE, Ver 6.3.3
Eastern Division
Abdul Mohammed
Plaintiff,
Case No.: l:20-cv-03481
Honorable Manish S. Shah

v.
Jorge Alonso, et al.
Defendant.

NOTIFICATION OF DOCKET ENTRY

This docket entry was made by the Clerk on Tuesday, August 4, 2020:
MINUTE entry before the Honorable Manish S. Shah: Plaintiffs application to
proceed in forma pauperis on appeal [19] is denied. The dismissal of plaintiffs complaint
was based on judicial immunity and the complaint's improper attempt to collaterally attack
earlier civil judgments and interfere with a still—pending case. This court concludes that
the appeal is not taken in good faith because the appeal is frivolous. See Lee v. Clinton,
209 F.3d 1025, 1027 (7th Cir. 2000). In forma pauperis status is not granted for appeals
not taken in good faith. Although this court denies the application, plaintiff may ask the
court of appeals to grant him in forma pauperis status. The clerk shall send a copy of this
order to the court of appeals, in re Case Nos. 20-2310 and 20—2390. Notices mailed.
(psm,)

ATTENTION: This notice is being sent pursuant to Rule 77(d) of the Federal Rules of
Civil Procedure or Rule 49(c) of the Federal Rules of Criminal Procedure. It was
generated by CM/ECF, the automated docketing system used to maintain the civil and
criminal dockets of this District. If a minute order or other document is enclosed, please
refer to it for additional information.
For scheduled events, motion practices, recent opinions and other information, visit our
web site at www.ilnd.uscourts.gov.

App 003

